Ti

summa  (CQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B um efs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-659
MILADIS SALGADO,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY TO PETITION FOR
A WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and

10 point for the footnotes, and this brief contains 2988 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

f GENERAL MOTARY-State of Mebraska L Queda if?
My Comm. Exp. September ยง, 2023
Notary Public 7

Affiant 39323
